 

SUPREME COURT OF THE UNITED STATES

David Kendrick,
Petitioner,
vs.
United States of America,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis. Petitioner has
previously been granted leave to proceed in forma pauperis in The United States
District Court for the Western District of Pennsylvania and The United States Court

of Appeals for the Third Circuit. Petitioner was appointed counsel to represent him
in the court of appeals under the Criminal Justice Act of 1964.

      

Michael E. DeMatt, Esquire
Attorney for Petitioner
TuRIN & DEMArTT, P.C.

115 N. Main Street
Greensburg, PA 15601
(724) 838-1400

 

Attorney I.D. No. PA85881
